OIG Investigative Reports, San Juan, PR September 21, 2011 - Thirteen Indiviauals Indicted and Arrested for Conspiracy to Commit Bribery Concerning Programs Receiving Federal Funds and Money Laundering
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
Rosa Emilia Rodríguez-Vélez
United States Attorney
District of Puerto Rico
Torre Chardón, Suite 1201     (787) 766-5656
350 Carlos Chardón Street
San Juan, Puerto Rico 00918
FOR IMMEDIATE RELEASE
September 21, 2011
Contact:     U.S. Attorney's Office
Lymarie V. Llovet-Ayala
Public Affairs Specialist
(787) 282-1820; (787) 340-1835
THIRTEEN INDIVIDUALS INDICTED AND ARRESTED FOR CONSPIRACY TO
COMMIT BRIBERY CONCERNING PROGRAMS RECEIVING FEDERAL FUNDS
AND MONEY LAUNDERING
SAN JUAN, P.R.  - On September 16, 2011, a Federal grand jury returned a two-count
indictment against thirteen individuals for conspiracy to commit bribery concerning programs
receiving federal funds at the Puerto Rico Department of Education (PRDOE), and conspiracy to
commit money laundering, announced Rosa Emilia Rodriguez-Velez, United States Attorney for
the District of Puerto Rico. The investigation was led by the U.S. Department of Education,
Office of the Inspector General (DOE-OIG), with the collaboration of the Federal Bureau of
Investigation (FBI) and the Comptroller's Office in Puerto Rico.
The defendants and entities are:
Luis Conde-Rosa was the Chief Procurement Officer of the Puerto Rico Department of
Education;
Daniel Erazo-Burgos was the Procurement Supervisor of the Puerto Rico Department of
Education;
Juan Carlos Mattei-Marcano was Vice-President of School Solutions and President of
Janpo, Inc.;
Ruben Mattei-Diaz was a principal of School Solutions, Inc. and President of Pochomba,
Corp.;
Julio Perrone-Mattei was President of School Solutions, Inc.;
Mario Rodriguez-Guerra was a Certified Public Accountant, and President of Empresas
Triunfo, Inc. and Puerto Rico Rainbow Foundation, Inc.;
Brenda Velazquez-Corchado was a Procurement Officer of the Puerto Rico Department
of Education;
Olga Diaz-Neris was a Procurement Officer of the Puerto Rico Department of Education;
Luis Santiago-Caro was an employee of School Solutions, Inc. and Service Pro Corp.;
Richard Marcano-Diaz was a Payment Officer of the Puerto Rico Department of
Education;
Juan Vazquez-Pagan was a Payment Officer of the Puerto Rico Department of Education;
Adonay Ramirez-Velez was President of Service Pro, Corp.;
Carlos Pescador-Charleman was President of Teren, Corp.
The object of the conspiracy was that defendants Juan Carlos Mattei-Marcano, Ruben
Mattei-Díaz, Julio Perrone-Mattei, Mario Rodríguez-Guerra, Luis Santiago-Caro, Adonay
Ramírez-Vélez, and Carlos Pescador-Charleman would give money and other goods in order to
receive favorable treatment in the awarding of contracts and the expeditious payment of invoices,
to defendants Luis Conde-Rosa, Daniel Erazo-Burgos, Brenda Velázquez-Corchado, Olga Díaz-
Neris, Richard Marcano-Díaz, and Juan Vázquez-Pagán who would unlawfully enrich
themselves by accepting said monies and goods in the awarding of contracts and the expeditious
processing of invoices.
The indictment alleges that in or about 2008, continuing through in or about 2009, Erazo-
Burgos, Mattei-Marcano, Mattei-Díaz, and Perrone-Mattei agreed that Erazo-Burgos would, in
return for cash and goods, direct his procurement officers to favor School Solutions, Service Pro,
Corp, and Teren, Corp. in the awarding of contracts. The indictment further alleges that Mattei-
Marcano and Mattei-Díaz submitted bids on behalf of all three corporations to defendants
Velázquez-Corchado and Díaz-Neris who, in return for cash and goods, favored the three
corporations in the awarding of contracts based on the submission of bids, thereby falsely
certifying that a competitive bidding process was carried out in accordance with state and federal
regulations; and expedited the processing of invoice payments submitted by the three
corporations.
In or about April, 2009, Luis Santiago-Caro was introduced to Luis Conde-Rosa at which
time Santiago-Caro agreed, with the consent of Juan Carlos Mattei-Marcano, to pay Conde-Rosa
two percent (2%) for all contracts awarded to School Solutions by procurement officers that
Conde-Rosa supervised. Mario Rodríguez-Guerra provided consulting, accounting, and tax
services to School Solutions, Service Pro Corp, and Teren Corp. In or about 2009, Juan Carlos
Mattei-Marcano, Ruben Mattei-Díaz, Rodríguez-Guerra and Adonay Ramírez-Vélez held
multiple meetings wherein the payments to PRDOE employees were discussed. Rodríguez-
Guerra advised that they avoid cash withdrawals and instead write checks to themselves which
were later cashed and the monies used to pay PRDOE employees.
Over the period of time referred to in the Indictment, defendants Mattei-Marcano, Mattei-
Díaz, Rodríguez-Guerra, Ramírez-Vélez and Pescador-Charleman conspired to engage in money
laundering related to the bribery scheme described above, by engaging in a series of transactions
which were designed to conceal and disguise the nature, location, source, ownership, and control
of the proceeds of their unlawful activity, and that while conducting and attempting to conduct
such financial transactions, knew that the property involved in the financial transactions
represented the proceeds of their unlawful activity. Amongst the defendants, they issued 141
checks totaling $933,139.25 for promotional and internet advertising services and accounting
and consulting services that were never provided.
“These individuals are charged with defrauding education programs, with the assistance
of public employees who abused their positions for personal gain,” said United States Attorney,
Rosa Emilia Rodríguez-Vélez. “We will continue to investigate and prosecute those who engage
in corrupt acts which directly affect federal programs and the availability of these funds for its
intended recipients,” stated Rodríguez-Vélez.
“Today's indictment alleges that the defendants knowingly and willfully abused their
position of trust for personal gain. That is unacceptable,” said William Hamel, Assistant
Inspector General for Investigations of the U.S. Department of Education. “Education is a vital
national interest, and our office will continue to protect Federal education funds from this kind of
calculated plunder.”
“It is deplorable that individuals charged with the responsibility of assisting in the
educational future of our children were engaged in corrupt practices just for mere personal gain.
The level of morality of these individuals arrested today is appalling,” said Carlos Cases-
Gallardo, Acting Special Agent in Charge of the FBI-San Juan Field Office.
The case is being prosecuted by Senior Litigation Counsel, Assistant United States
Attorney Scott Anderson. If found guilty, the defendants could face a possible sentence of
twenty (20) years in prison.
Indictments contain only charges and are not evidence of guilt. Defendants are presumed
to be innocent unless and until proven guilty.
###
Top
Printable view
Last Modified: 11/14/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov